<html>
<title> - STATE-SPONSORED CYBERSPACE THREATS: RECENT INCIDENTS AND U.S. POLICY RESPONSE</title>
<body><pre>[Senate Hearing 115-716]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-716

                   STATE-SPONSORED CYBERSPACE THREATS:
               RECENT INCIDENTS AND U.S. POLICY RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON EAST ASIA, THE
                       PACIFIC, AND INTERNATIONAL
                         CYBER SECURITY POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 13, 2017
                               __________

       Printed for the use of the Committee on Foreign Relations
       

                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                
                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-379 PDF                 WASHINGTON : 2019



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        





            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
JAMES E. RISCH, Idaho                EDWARD J. MARKEY, Massachusetts
MARCO RUBIO, Florida                 JEFF MERKLEY, Oregon
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia

                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Gardner, Hon. Cory, U.S. Senator from Colorado...................     1


Markey, Hon. Edward J., U.S. Senator from Massachusetts..........     2


Merkley, Hon. Jeff, U.S. Senator from Oregon.....................     3


Ravich, Dr. Samantha, Senior Advisor, Foundation For Defense of 
  Democracies, Washington, DC....................................     4

    Prepared statement...........................................    25


Rosenbach, Hon. Eric, Co-Director, Belfer Center for Science and 
  International Affairs, Harvard University, Cambridge, MA.......     6

    Prepared statement...........................................     8





                                 (iii)

 
                       STATE-SPONSORED CYBERSPACE
                       THREATS: RECENT INCIDENTS
                        AND U.S. POLICY RESPONSE

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                               U.S. Senate,
           Subcommittee on East Asia, The Pacific, 
                   and International Cybersecurity,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Markey, Merkley, and 
Kaine.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Well, thank you. I will call this hearing 
to order.
    Thank you all for being here and welcome to the third 
hearing in the East Asia, The Pacific, and International 
Cybersecurity Policy Subcommittee meeting in the 115th 
Congress.
    Today's topic is state-sponsored threats in cyberspace, 
which has emerged as one of the primary national security 
challenges for the United States Government, the primary risk 
to the U.S. economy in the private sector, and the primary 
threat to our Nation's critical infrastructure.
    Simply put, our national and economic security depends on 
both securing our networks and effectively deterring our 
adversaries who are getting stronger, not weaker, by the day.
    According to the 2017 Worldwide Threat Assessment of the 
United States intelligence community, ``our adversaries are 
becoming more adept at using cyberspace to threaten our 
interests and advance their own, and despite improving cyber 
defenses, nearly all communication networks and systems will be 
at risk for years.''
    The report specifically mentions China, Russia, Iran, and 
North Korea as the four cyber actors of greatest concern. These 
countries have developed asymmetric cyber capabilities that can 
cause significant damage to the United States and American 
interests with little public awareness of the immense 
consequences.
    Yesterday, the ``Washington Post'' reported hackers, allied 
with the Russian Government, have devised a cyber weapon that 
has the potential to be the most disruptive yet against 
electric systems that Americans depend on for daily life. This 
is the same group that attacked Ukraine's electric grid in 
2015, leaving 225,000 people without power. Last month, the so-
called WannaCry ransomware affected over 200,000 users in 151 
countries, allegedly by exploiting certain machines with an 
unpatched software flaw.
    Our policies have not effectively kept up with the threat. 
The U.S. international strategy for cyberspace is now over 6 
years old, and so in technology terms, it is a fossil.
    Our efforts to develop effective global cyber norms and the 
components that are necessary for global partnerships have also 
sputtered. As the 2017 Worldwide Threat Assessment stated, 
although efforts are ongoing to gain adherence to certain 
voluntary, non-binding norms of responsible state behavior in 
cyberspace, they have not gained universal acceptance, and 
efforts to promote them are increasingly polarized. The good 
actors are being outpaced by the dark arts of cyber.
    Our diplomatic and economic response has been similarly 
lacking. Despite the bevy of executive orders and legal 
authorities available for successive administrations to punish 
state-sponsored actors, only a handful of North Korean actors 
were designated after the Sony attack in 2014.
    Last year, Senator Menendez and I led the passage of the 
North Korea Sanctions and Policy Enhancement Act, the first 
legislation to mandate sanctions on malicious cyber actors 
working on behalf of that regime regardless of where they are 
based. Not one--not one--has been designated to date under this 
legislation.
    Cyber attackers do not sleep. They do not sleep at the 
switch. They reprogram it. We must choose to either use all 
instruments of national power, including diplomacy, economic 
sanctions, and offensive capabilities to deter the malicious 
cyber actors or cede the field to our adversaries and face 
catastrophic consequences.
    I look forward to hearing from our distinguished witnesses 
today on ways that we can strengthen U.S. policy to address 
these grave threats.
    With that, I will turn it over to our ranking member, 
Senator Markey from Massachusetts.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And 
thank you for convening what I believe is going to be one of 
the most important hearings that is conducted here in 
Washington this week.
    As you mentioned, the recent WannaCry ransomware attack has 
yet again highlighted the vulnerability of digital devices to 
exploitation and disruption by malicious actors. Today's era is 
known as the IOT, the Internet of Things. But IOT can also 
stand for Internet of Threats.
    And 24 years ago in April of 1993, I, as the chairman of 
the Telecommunications Committee in the House of 
Representatives, conducted a hearing in 1993, during which a 
group of specialists from Sun Microsystems demonstrated in real 
time how simple tools could be used to steal data from personal 
electronic devices. That hearing showed that the architecture 
of the Internet was created for ease of access, not for 
security. And as Secretary Rosenbach notes in his testimony 
today, heavy U.S. reliance on digital devices and 
communications means that these security gaps could have an 
outsized impact on U.S. national security and economic 
prosperity. That hearing in 1993 also demonstrated, as they 
pointed out, how there could be a cracking into the Kremlin or 
to the Pentagon or to our South Pacific fleet.
    So these are not new issues. These are issues that we just 
cited not to fully deal with in terms of what the implications 
are for our Nation.
    And just yesterday, the ``Washington Post'' reported that 
Russian hackers have developed a cyber weapon that can attack 
our electricity systems. They were already successful in 
disrupting an energy system in the Ukraine, making it that much 
more important that we double down on protections to have our 
grid at home be protected.
    In fact, just a few Congresses ago, Congressman Fred Upton 
and I were able to pass a bill through the House of 
Representatives, which was called the GRID Act, that mandated 
an upgrading in the overall protections against cyber attacks 
which could occur in our country. But that was in 2010. It came 
over here to the Senate, and unfortunately it died. But those 
hearings--that record all was established because the National 
Security Agency, because the intelligence agencies had come to 
Fred and I asking us to do something because they felt the 
threat was real.
    So this is something that is possible. It already happened 
in the Ukraine. It is something that keeps national security 
people up at night worrying about how vulnerable our own 
national electricity system could be and other parts of our 
system as well. That is why this hearing is so important.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Senator Merkley, thanks for joining us. Anything that you 
would like to say off the bat here as we begin?

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. It is extremely important, both as it 
relates to the security of our infrastructure, certainly the 
security of our elections, the security of our financial 
systems. We have seen attacks in each area, and I am looking 
forward to the testimony of our experts.
    Senator Gardner. Thank you, Senator Merkley. Thanks for 
joining us today.
    We will turn to the testimony now. Our first witness is Dr. 
Samantha Ravich who currently serves as a Senior Advisor to the 
Foundation for the Defense of Democracies, or FDD, as well as 
the principal investigator on cyber-enabled Economic Warfare 
Project at FDD's Center for Sanctions and Illicit Finance. Dr. 
Ravich is the former Deputy National Security Advisor for Vice 
President Cheney and served in the White House for over 5 
years. Following her time at the White House, Dr. Ravich was 
the co-chair of the congressionally mandated National 
Commission for Review of Research and Development Programs in 
the United States intelligence community. Welcome, Dr. Ravich.
    Our second witness today is the Honorable Eric Rosenbach, 
who serves as Co-Director of the Belfer Center for Science and 
International Affairs at the Harvard Kennedy School. Mr. 
Rosenbach formerly served as chief of staff to Secretary of 
Defense Ash Carter and also as Assistant Secretary of Defense 
responsible for leading all aspects of the Department's cyber 
strategy, policy, and operations. He also served here in the 
Senate as national security advisor for then Senator Chuck 
Hagel and as a professional staff member on the Senate Select 
Committee on Intelligence. Welcome, Mr. Rosenbach.
    And Dr. Ravich, thank you very much for being here, and we 
will go ahead and proceed with your testimony.

 STATEMENT OF DR. SAMANTHA RAVICH, SENIOR ADVISOR, FOUNDATION 
           FOR DEFENSE OF DEMOCRACIES, WASHINGTON, DC

    Dr. Ravich. Thank you. Chairman Gardner, Ranking Member 
Markey, distinguished members of the subcommittee, thank you 
for inviting me to participate in this important hearing.
    My testimony today focuses on an area that I believe is 
woefully underappreciated, yet cannot be more important for our 
country, and that is the use of cyber means by adversarial 
states to purposefully undermine our economy in order to weaken 
us militarily and politically.
    It is my contention that the threats are real, the warfare 
is ongoing, and that the U.S. Government is inadequately 
structured to properly and comprehensively detect, evaluate, 
and address cyber-enabled economic threats. The U.S. Government 
has made great strides in organizing itself to protect and 
defend the .gov and .mil realms, but our Nation's greatest 
vulnerability may lie with adversarial attacks on the U.S. 
private sector.
    It is true that the business of America is business, and 
the business of America is at risk of being hollowed out from 
the inside by everything from theft of intellectual property to 
the malicious infection of the supply chain to the degradation 
of confidence in our commerce, banking, and transportation 
sectors.
    But it is not the pure cyber criminal that should keep this 
committee up at night. Rather, it is the hostile state actor 
who recognizes that while it may not be able to compete 
directly with America's strength of arms, it holds a 
significant asymmetric advantage in attacking our economic 
wherewithal and, by so doing, weaken us militarily or 
politically. We call this purposeful strategy cyber-enabled 
economic warfare.
    Two of the most active players in this field are the 
Chinese and the North Koreans. For decades, China has been 
engaged in a massive, prolonged campaign of intellectual 
property theft against U.S. firms, costing potentially hundreds 
of billions of dollars and more than 2 million jobs. China's IP 
theft campaign constitutes a large, if not the largest, part of 
what appears to be Beijing's overall cyber-enabled economic 
warfare strategy against the U.S. and the West more generally, 
which they themselves have described as, ``a form of non-
military warfare which is just as terribly destructive as a 
bloody war but in which no blood is actually shed.''
    Recently Beijing punished a private South Korean company in 
part by denial of service attacks for participating in the 
THAAD deployment. The revenue loss was marginal, but the move 
has prompted deep concerns in Seoul. South Korea exported over 
$120 billion to China last year, about a quarter of the 
country's total exports, and is particularly vulnerable to 
Chinese coercion. A possible result, South Korean President 
Moon has suspended further deployment of THAAD.
    However, Washington and its allies have been slow to 
comprehend the threat from China primarily because they view 
each cyber-enabled economic attack individually as separate 
incidents instead of collectively as elements in an overall 
coordinated campaign.
    And North Korea. South Korean police cyber investigators 
stated in 2016 that North Korea had operationalized a long-term 
plan involving the seeding of malicious code at over 160 South 
Korean private firms and government agencies, ``aimed to cause 
confusion on a national scale by launching a simultaneous 
attack.''
    As well, North Korean hackers most likely initiated the 
WannaCry ransomware attack. The monetary haul from the scheme 
was minimal, leading some analysts to question if the effort 
was a test for a larger attack. Similar assessments have been 
made about the 2016 cyber bank heist on the New York Fed tied 
to a North Korean cyber group. While some have remarked that it 
appears that the North Koreans may now be robbing banks, it is 
more chilling to consider that the North Koreans now may be 
targeting our banking sector.
    With a GDP per capita of barely $1,000, North Korea has an 
obvious need to rob banks. But Kim Jong-un is not simply a 
Korean Willie Sutton. In a military confrontation with the U.S. 
and South Korea, Kim would look to any capability that could 
help even out the overwhelming military advantage of the 
allies. Attacking our economies, which he has already proven he 
can and will do, may be the quickest way to gain battlefield 
advantage since it could potentially cause panic in our markets 
and on our streets.
    Without a concerted effort, the United States' economy will 
become increasingly vulnerable to hostile adversaries seeking 
to undermine our military and political strength. The U.S. 
Government must immediately undertake a number of actions to 
prevail in this new battlespace, including sustained attention 
in understanding the capabilities and intentions of adversarial 
leadership with a long-term strategy to deter and defeat them.
    But the U.S. cannot go it alone in its endeavors to 
safeguard the networks and systems upon which our economy 
depends and which we must take steps to formalize the cyber 
partnerships that already exist with the other free market 
democracies that are leaders in cyber science and technology, 
specifically with the UK and Israel.
    I have included additional recommendations and policy 
prescriptions in my written testimony. I thank you for the 
opportunity to testify, and I look forward to your questions.


    [Dr. Ravich's prepared statement is located at the end of 
this hearing transcript, beginning on page 25.]


    Senator Gardner. Thank you, Dr. Ravich, and thank you for 
being very prompt. Thank you.
    Mr. Rosenbach?

 STATEMENT OF HON. ERIC ROSENBACH, CO-DIRECTOR, BELFER CENTER 
  FOR SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD UNIVERSITY, 
                    CAMBRIDGE, MASSACHUSETTS

    Mr. Rosenbach. Mr. Chairman, before I started, I wanted to 
let you know something I hope does not get me in trouble with 
Senator Markey. I was born and raised in Colorado, a die-hard 
Denver Broncos fan. So despite the fact I live in Cambridge, 
Massachusetts, I am going to fly a big Denver Broncos flag out 
there all the time.
    Senator Gardner. Did you go to school at the University of 
Colorado, the hub of the West?
    Mr. Rosenbach. I grew up in Colorado Springs and 
Breckenridge. So not in college, but still cheering for the 
Orange Crush. Sorry, Senator.
    Chairman Gardner, Ranking Member Markey, and Senator 
Merkley, thank you very much for the invitation and thank you 
for calling this important hearing today.
    As technology advances and we become more connected, we 
increasingly live in a digital glass house that must be much 
better protected. I like to use the glass house analogy because 
it helps to illustrate two important points.
    First, that cyber warfare is truly asymmetric: a small 
nation with an offensive cyber capability can have an outsized 
effect on a larger power. For example, the U.S., a 
technological and economic powerhouse, is significantly more 
vulnerable to cyber attack than North Korea, as we just heard 
from Dr. Ravich, a nation most citizens do not even have an 
Internet connection. We should, therefore, think very carefully 
about the implications of a possible North Korean cyber attack 
against the United States, something that I unfortunately 
believe is likely to happen within the next year if current 
trends continue.
    Second, democracies' transparent, open societies also make 
them vulnerable to foreign information operations. This 
vulnerability is exacerbated by high levels of Internet 
accessibility and the rapid pace and breadth of information 
sharing. In contrast, authoritarian societies like China, 
Russia, and North Korea often control the media, censor 
domestic online activity, and shield their nations to some 
degree from outside information and cyber operations through 
the use of national-level firewalls like the Great Firewall of 
China, for example.
    Unfortunately, no nation, including the United States, has 
responded to Russia's recent potent hybrid of cyber and 
information attacks in a way that is visible and forceful 
enough to deter future attacks. The fragility of our national 
security posture, combined with our adversaries' perception 
that Russia's recent actions achieved unprecedented success, 
increases the likelihood that the U.S. and our allies will 
experience more serious attacks like this in the coming years.
    Thus, the U.S. needs to bolster its deterrence posture by 
both raising the costs and decreasing the benefits to hostile 
actors of engaging in this conduct.
    In 2015, the Department of Defense articulated for the 
first time our strategy on deterrence in cyberspace. In short, 
the strategy said that deterrence is partially a function of 
perception. We said that deterrence works by convincing a 
potential adversary that it will suffer unacceptable costs if 
it conducts an attack against the United States and by 
decreasing the likelihood that the potential adversary's attack 
will succeed. And this is all based on their perception of 
that.
    In terms of increasing the costs of an attack, the U.S. and 
international community should be less circumspect about 
employing all available foreign policy tools, particularly 
those outside of the cyber domain. Given the glass house effect 
that I previously described, we should be careful about 
responding to cyber attacks with military options. However, we 
should be prepared to use our superior cyber capabilities 
strategically and creatively to demonstrate our willingness to 
act in the face of serious provocations.
    Additionally, the U.S. must increase the costs of cyber and 
information operations by using foreign policy tools outside 
the military domain such as: 1) attributing publicly cyber and 
information attacks as soon as we have confidence in their 
origins and not waiting for months or longer; 2) pushing for 
sustained multilateral economic sanctions against states that 
use cyber and information weapons; 3) reinventing our 
capabilities with respect to information operations and our 
strategy for countering them; and 4) taking a leading role in 
building international capacity to disrupt the proliferation of 
black market destructive malware.
    As I mentioned, reducing the benefits that adversaries 
derive from cyber and information operations is another key 
aspect of bolstering our deterrence posture. To do this, the 
administration, Congress, and the private sector should work 
together to: first, pass legislation that the government and 
the private sector can share threat information, including with 
State election bodies and campaigns to facilitate that; two, 
legislate mandatory compliance of the new Cybersecurity 
Framework, something that I know you have done some work on; 
three, pursue aggressive steps to mitigate the effect of 
information operations on the platforms of leading tech 
companies, including Facebook, Twitter, and Google; and four, 
incentivize private sector investment in cloud-based security, 
blockchain-enabled transactions, and quantum computing.
    In the interest of time, I will submit the rest of my 
testimony for the record.
    But I would like to say that the strength of the American 
tech sector has driven the American economy for almost 2 
decades, driven our democracy. It is very important that we 
protect that center of gravity by bolstering our deterrence 
posture and doing some of the things that I spoke about and 
some of the things also that Dr. Ravich just mentioned as well.
    Thank you very much.
    [Mr. Rosenbach's prepared statement follows:]


               -Prepared Statement of Hon. Eric Rosenbach

``Living in a Glass House: The United States Must Better Defend Against 
                    Cyber and Information Attacks''

    Chairman Gardner, Ranking Member Markey and other distinguished 
members of the Committee, thank you for calling today's hearing on 
cybersecurity and for the invitation to testify.
    As technology advances and we become more connected, we 
increasingly live in a digital ``glass house'' that must be much better 
protected. I like to use the glass house analogy because it helps 
illustrate two important points.
    First, that cyber warfare is truly asymmetric: a small nation with 
an offensive cyber capability can have an outsized effect on a larger 
power. For example, the U.S.--a technological and economic powerhouse--
is significantly more vulnerable to cyberattack than North Korea, a 
nation where most citizens do not even have an internet connection. We 
should therefore think very carefully about the implications of a 
possible North Korean cyberattack on the United States, something that 
I believe is likely to happen within the next year if current trends 
continue.
    Second, that democracies' transparent, open societies also make 
them vulnerable to foreign information operations. This vulnerability 
is exacerbated by high levels of internet accessibility and the rapid 
pace and breadth of information sharing. In contrast, authoritarian 
societies like China, Russia and North Korea often control the media, 
censor domestic online activity and shield their nations (to some 
degree) from outside information and cyber operations through the use 
of national-level firewalls, such as the Great Firewall of 
China.Unfortunately, no nation, including the United States, has 
responded to Russia's recent potent hybrid of cyber and information 
attacks in a way that is visible and forceful enough to deter future 
attacks. The fragility of our national cybersecurity posture, combined 
with our adversaries' perception that Russia's recent actions achieved 
unprecedented success, increases the likelihood that the U.S. and our 
allies will experience more serious attacks in the coming years.
    Thus, the U.S. needs to bolster its deterrence posture by both 
raising the costs and decreasing the benefits to hostile actors of 
engaging in this conduct.
    In 2015, the Department of Defense articulated for the first time 
our strategy on deterrence in cyberspace. In sum, the strategy 
articulated that deterrence is partially a function of perception. As 
the DoD strategy explains, deterrence works by ``convincing a potential 
adversary that it will suffer unacceptable costs if it conducts an 
attack on the United States, and by decreasing the likelihood that a 
potential adversary's attack will succeed.'' \1\
---------------------------------------------------------------------------
    \1\ The Department of Defense Cyber Strategy, April 2015, p.11.
---------------------------------------------------------------------------
    In terms of increasing the costs of an attack, the U.S. and 
international community should be less circumspect about employing all 
available foreign policy tools, particularly those outside of the cyber 
domain. Given the ``glass house effect'' that I previously described, 
we should be careful about responding to cyberattacks with military 
options since the U.S. has more to lose from an escalation in cyber-
initiated conflict. We should, however, be prepared to use our superior 
cyber capability strategically and creatively in order demonstrate our 
willingness to act in the face of serious provocations.
    Additionally, the U.S. must increase the costs of cyber and 
information operations by using foreign policy tools outside the 
military domain, such as: 1) attributing publicly cyber and information 
attacks as soon as we have confidence the origins; 2) pushing for 
sustained multilateral economic sanctions against states that use cyber 
and information weapons; 3) reinventing our capabilities with respect 
to information operations and our strategy for countering them; and 4) 
taking a leading role in building international capacity to disrupt the 
proliferation of black-market destructive malware.\2\
---------------------------------------------------------------------------
    \2\ By disrupting the black market for destructive malware and 
other exploits, the international community would increase the costs 
associated with conducting? cyber and information attacks. This is a 
difficult challenge, but the Proliferation Security Initiative for 
weapons of mass destruction--a global initiative supported by over 100 
countries--provides an analogous model for action.
---------------------------------------------------------------------------
    As I mentioned, reducing the benefits that adversaries derive from 
cyber and information operations is a key aspect of bolstering our 
deterrence posture. To do this, the administration, Congress and 
private sector should work together to: 1) pass legislation that 
improves the ability for the government and private sector to share 
cyber threat information, including with state election bodies and 
campaigns; 2) legislate mandatory compliance with the NIST's 
Cybersecurity Framework for critical infrastructure providers; 3) 
pursue more aggressive steps to mitigate the effect of information 
operations on the platforms of leading tech companies, including 
Facebook, Twitter and Google; and 4) incentivize investment in cloud-
based security, blockchain-enabled transactions and quantum computing.
    Developing and employing operational cyber capabilities is an 
important way to advance U.S. national interests. That said, we simply 
must keep sensitive vulnerabilities and exploits secure. Allowing this 
type of sensitive knowledge to get into the public domain damages 
American tech firms and increases the likelihood that hostile actors 
will conduct malicious actions against the U.S.
    In sum, the strength of the tech sector and the internet has driven 
American economic growth and strengthened our democracy for the past 
two decades. The corollary of this success, though, is that the U.S. is 
increasingly vulnerable to cyber and information attacks. In order to 
maintain the ``center of gravity'' for the United States, we must 
bolster America's cybersecurity posture and rethink our strategy for 
countering foreign information operations.


    Senator Gardner. Thank you, Mr. Rosenbach.
    And we will proceed with questions.
    I guess I would kind of lay out just a question about 
process and the construct of our ability to deal with cyber 
threats. You both mentioned various elements and various 
dimensions of the cyber challenge we face. You talked about 
cyber-enabled economic warfare. In your testimonies, you talked 
about IP theft. You talked about theft of intellectual property 
in the United States, which some estimate as high as $540 
billion a year I believe is in your testimony. We have talked 
about how North Korea has hacked Sony Pictures. We have talked 
about the ransomware. And so there are so many different 
elements of cyber policy.
    We have different elements within the Federal Government to 
respond to those. We have a tech czar at the White House. We 
have a cyber position at the Department of State. We have 
offices within the Pentagon.
    As you look at the Federal Government, who is in charge of 
our cyber policy? Either one of you.
    Mr. Rosenbach. Senator, I think that is a great question. 
And I have to be honest, when I look at the administration 
right now, I am not as sure about that. There is still the 
White House cyber coordinator, but I am not sure, even during 
the Obama administration, that that position was empowered 
enough to bring all of the people from around the government to 
the table and to really drive some of the change that is 
necessary to make a big difference.
    I think when it comes down to it, there has to be 
collaboration between all the departments and agencies. When I 
first started in the Obama administration almost 8 years ago, 
it was a mess in terms of figuring out even what the roles and 
responsibilities were and the lanes and the roads were for 
defending the country and working with the private sector. I 
think that is more established now, but we still could use a 
very strong leadership position there.
    Senator Gardner. Dr. Ravich, who is in charge?
    Dr. Ravich. Well, I have to agree with my co-panelist that 
for the entire apparatus there currently is not an empowered 
either an individual or an agency to do what I think is 
necessary which, borrowing a phrase from the military, is a bit 
of an OODA loop. I mean, how are we going to understand the 
threat that is out there so that we make sure that as we are 
putting in the right--either on the defense or an offense, it 
is having the effect that we want.
    Right now, still cyber war is not run by computers. It is 
run by the man behind the man behind the computer. These are 
decisions being made on the adversarial state level by 
leadership and people empowered by the leadership in 
adversarial states. It does not just all of a sudden happen.
    So the first of the OODA loop, observe. Do you we really 
know who is in charge of making these decisions in a Russia, in 
a China, in Pyongyang, in a Tehran so that we can exploit 
fissures and vulnerabilities to go after the people that are 
making those decisions and then funneling it down to the 
operators and being able to see the effects? I do not see this 
loop.
    Senator Gardner. And I think that is a significant problem 
that we face because we do not know who is in charge, and that 
is a big challenge because in your testimony I think you lay 
out as the U.S. economy grows and as an economy anywhere on the 
globe becomes more sophisticated, then they are more vulnerable 
and more susceptible to cyber attacks. And as the asymmetric 
ability of North Korea or Iran rises, it is pretty doggone 
important that we have somebody that we can turn to and say you 
are in charge of this government's cyber policy.
    One of the things that I have supported and others on the 
committee have supported is the creation of a select committee 
on cybersecurity that would take the ranking member and the 
chair of each committee that has jurisdiction over 
cybersecurity, put them on one committee so that they can have 
a whole-of-government view because this is a complex issue. 
This is not just about weapons systems that the Defense 
Department Science Board noted that the nation's weapons 
systems are at risk from the malicious insertion of defects or 
malware. It is not just about that. It is not just about North 
Korea's Sony attacks. It is about changing decimal points at 
hospitals that could result in deaths. It is about a whole-of-
government view, and we need to know who is in charge.
    So with that being said, a scale of preparedness. Where on 
the scale of preparedness, 0 to 100, where is the United States 
Government in preparedness against some kind of major cyber 
event?
    Dr. Ravich. Well, given what I wrote in my testimony and 
what I said, that the U.S. Government looks after .mil and .gov 
and .com is essentially on your own, right there you are 
starting from less than 50 percent or more because who is 
watching out for the very lifeblood of our country? We would 
not be the number one military if we were not the number one 
economy. So I think right there you are starting out and you 
have the beginning of your answer.
    Senator Gardner. Mr. Rosenbach, just to maybe ask a 
different question to you. You talked about raising costs and 
decreasing benefits for the acts of a cyber hack. Did we make 
the costs sufficient enough on North Korea in relation to Sony? 
Did we make it sufficient enough in Iran after a variety of 
hacks of electric facilities in this country? Did we make it 
sufficient toward Russia? And I have an amendment to the 
sanctions bill that would require cyber sanctions on Iran. Just 
briefly if you could hit that and then we will turn to Senator 
Markey.
    Mr. Rosenbach. Yes, sir. I think in the case of the North 
Korean cyber attacks against Sony that the response was strong 
enough and was quite good because it then mitigated attacks 
from North Korea down the road.
    That said, I do not think the response in the case of the 
recent Russian cyber and information operations against the 
United States was strong enough at all, which leaves, 
unfortunately, I think the perception that other adversaries 
will try to take advantage of our system to do something 
similar down the road.
    Senator Gardner. We are going to work on this week. So 
thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Turning to those Russian elections--the Russian 
interference in our elections, it does not have to be complex. 
It can be a relatively simple spear phishing attack, and that 
can ultimately have very important consequences within our 
country and just luring someone into giving over their 
credentials to an attacker. And by the way, the same thing 
could happen in China, lure people in in utilities to give over 
information that can be valuable then for the subsequent, much 
more devastating attack.
    So when you were answering the questions of the chairman 
about the vulnerability of our government, when you look at the 
utility sector, Mr. Rosenbach, do they take it seriously enough 
yet? Do they actually want to spend the money in order to 
ensure that they have got state-of-the-art protections which 
are built in? Are they just willing to run kind of the risk 
that maybe they will be lucky and it will never hit them but 
they never had to spend the money in order to protect against 
an attack, which we know that Russia already launched against 
Ukraine successfully and that they or the North Koreans or 
other could launch against us? So does the utility industry 
take it seriously enough?
    Mr. Rosenbach. Senator, it is definitely on their radar. 
They have dedicated efforts. All of the utility companies look 
at this, but they do not take it seriously enough. And that is 
the right way to ask the question I think.
    Senator Markey. Why is that?
    Mr. Rosenbach. I think when it comes down to it, some of 
this stuff can be expensive and it can be complicated. And 
normally you are not forced to do things unless you have to or 
there is a return to your bottom line. Cybersecurity is a cost 
center. In some domains--banks, for example--they are willing 
to spend the extra money because they see that it is a good 
investment. I am not sure it is the same in the utility sector.
    Senator Markey. Joe Tucci is a friend of mine. He is the 
CEO of EMC. He was until Dell purchased EMC. But that is the 
largest company in Massachusetts. But within that company is a 
subgroup called RSA, which is kind of state-of-the-art cyber 
protections. And I asked Mr. Tucci. I said why do companies not 
buy the state-of-the-art from RSA? He said, well, they do not 
want to spend the money. And I said, well, what if they did 
spend the money? Well, he said, then they would be protected 
because we are constantly upgrading, but they do not want to 
spend the money. And then I continued to pursue it because it 
goes to government contractors or to private sector companies 
as well, just trying to probe why they will not spend the 
money. And as you said, it is a cost center. They do not want 
to spend it, but it causes inevitably kind of a catastrophic 
event.
    So can you get into that mentality a little bit more and 
what your recommendations would be to us in order to make sure 
that we prepare our country properly for the inevitable, which 
is that cyber is going to become the tool which is used in so 
many more instances than conventional weapons because they do 
not potentially cause fatalities, but the disruptions could be 
catastrophic?
    Mr. Rosenbach. Senator, like I mentioned in my opening 
comments, a starting point is to make the NIST framework 
mandatory for critical infrastructure and the energy sector in 
particular. And remember, the private sector, the energy sector 
works with NIST on this to come up with the framework. It is 
not as if it is legislated in law that you need to have three 
firewalls and your networked needs to be architected in that 
way. When you read the ``Washington Post'' article from 
yesterday and you see what happened in Ukraine, you better take 
the warning because, if you do not both play defense and then 
have a strong deterrence posture, something bad is going to 
happen and we will regret we did not do more.
    Senator Markey. And then you turn to the industry and you 
say to the industry, let us have standards. And they go, yes, 
but voluntary standards. Please do not make it mandatory. That 
would be like financially catastrophic for us. But we agree 
with you. It could be catastrophic if there is an attack on the 
electric grid.
    So how do we deal with that issue if we know what the 
threat is, we know it happened in Ukraine, we know it could 
apply just as easily to the electric grid of the United States, 
and we have an industry that wants voluntary, not mandatory 
protections which are built into the system?
    Mr. Rosenbach. Sir, I think you need to legislate on it. 
You know, there have been various bills that incorporate both 
information sharing and some sort of standard for 
infrastructure protection. Do it in certain sectors. Make sure 
that it is not overly burdensome, that it is done in 
conjunction with the private sector. I also believe that it is 
a little counterintuitive but that it would do something to 
spur the economy and the tech sector because there would end up 
being more demand for that. And in the end, it would be two net 
positives rather than something that would be an overly 
burdensome regulatory regime.
    Senator Markey. And I agree with you.
    Do you agree with Mr. Rosenbach, Dr. Ravich?
    Dr. Ravich. I do. But I think this also points to an area 
where government-funded research and development is needed, 
whether we are talking about new advances in SCADA legacy 
systems or the truly long tail R&D that the private sector has 
a hard time making a case for up front with its investors 
because when they are going to get the returns from it is a 
little unknown are perfect areas for serious cyber R&D that I 
believe the U.S. Government should be on the forefront of 
promoting with, I would add, two of our closer friends and 
allies that are the other two most technologically savvy 
countries in the world, the UK and Israel. We should be 
thinking about working closer with those two nations in some 
form of cyber co-op with a structured R&D agenda as potentially 
the first thing that we go ahead on, things that the private 
sector may not put their money to do but is necessary for the 
security of our economies and our systems.
    Senator Markey. Senator Merkley and I were in--Senator 
Gardner--we were in Israel last year, and that is one of the 
points that the prime minister was making to us, that they are 
really focusing upon cybersecurity. It is a big, new industry 
for them. And so when I got back up to Boston, I asked one of 
the cyber company CEOs about Israel. And he said, oh, they are 
the best. They are state-of-the-art. We bought five of their 
companies this year.
    So you are right. There is a close working 
interrelationship, and it would get better if there is a 
mandate that especially the critical infrastructure in our 
country had to be protected. You would not have to worry. It 
would get developed and the costs would go down. The technology 
would become more ubiquitous, but until that signal is sent, I 
think we are going to just see a constant repetition syndrome 
of a cycle where the same thing happens. Everyone responds. 
They are actually shocked. They hope that the issue goes away. 
And then we wait for the very next thing to occur but in a 
slightly different setting.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Senator Merkley?
    Senator Merkley. Well, thank you, Mr. Chair.
    And thank you both for your testimony.
    Dr. Ravich, I was fascinated by your story about South 
Korea and China. If I understand right--is it pronounced Lotte?
    Dr. Ravich. Lotte.
    Senator Merkley. The Lotte Company. That, of course, makes 
we want to go out and buy some coffee.
    But the Lotte Company sold its golf course to the 
Government of South Korea so that they could put up the THAAD, 
the terminal high altitude area defense anti-missile system. 
And then the Chinese said, well, we will make an example out of 
them. They shuttered their stores, a traditional type of 
response. They then took down the Lotte website with a denial 
of service attack, so a cyber attack. And then the Chinese 
retailers dropped Lotte products from their sites. And all of 
this just as there was a new prime minister in South Korea--a 
new president who then sent an emissary to President Xi of 
China. And in short order, Lotte was unblocked and South Korea 
suspended the THAAD program.
    Is it your understanding that really the suspension of the 
THAAD program came directly as a response to the Chinese cyber 
attack on South Korea?
    Dr. Ravich. Well, I do not know if it was a direct result 
or it is part of a larger pattern of Chinese coercion against 
the South Koreans in this context. When China looks at all of 
the different muscles that it can flex when it has that type of 
trading arrangement with the South Koreans and know that the 
South Koreans have that much product that they are selling into 
China, China holds a lot cards. And this was clearly a shot 
across the bow in Seoul. You do this. These are the types of 
effects you are going to feel. The DDoS attack was a small 
attack monetarily-wise but clearly these things are all part of 
a pattern. I do not think it goes too far to say that this was 
something that the Chinese lifted when the South Koreans----
    Senator Merkley. Have we seen China enact similar patterns 
of retaliation against companies that are engaged in things it 
does not like? Or is this kind of a new test?
    Dr. Ravich. No. We see pattern--I see Eric shaking his head 
yes--after pattern. There was an example in Vietnam not too 
long ago, actually after the Hague decision for the Philippines 
and against China. It appears that China wanted to send a 
specific message to Vietnam. Don't you get any ideas in those 
territorial waters. And there were certain trade actions taken 
against Vietnam.
    Senator Merkley. I wanted to turn to North Korea because 
here in the United States, we have the NSA full of some of the 
brightest computer minds to be found certainly throughout our 
country and probably beyond. And I think about so here is North 
Korea that does not have a lot of contact with the outside 
world. What is our assessment on how they developed such 
enormous capability? Are they benefiting from cyber expertise 
being shared from the Chinese? Or have they simply made this 
such a priority for their country that they are harvesting 
every great mathematical computer code mind to go to work on 
this project?
    Dr. Ravich. So the answer is certainly the latter, but how 
they effect that--they have made this a clear priority. They 
know that this is one of their greatest asymmetric strengths to 
be able to go after the economy in South Korea.
    But the North Korean scientists do travel the world. They 
do go to conferences. They do have access to journals and 
online resources. They are not growing up in a bubble, so to 
speak. They are learning from potentially other hostile state 
and non-state actors.
    Senator Merkley. Here is a question then. So we have seen 
North Korea with the WannaCry ransomware attack, the Sony 
attack, the DarkSeoul attack, the Bangladesh account, attempted 
$1 billion heist. And I am sure there is a much longer list 
than that. So why is North Korea not concerned about extensive 
retaliation? And is it because in part that their own economy 
is not computerized in a way that makes it very vulnerable to 
such retaliation?
    Dr. Ravich. I think they have learned a valuable lesson 
over the last 20 years, that they can get away with a lot 
without facing any punishment that they feel the pain. Even 
with the sanctions regime they keep getting layered and layered 
over them, they continue with their nuclear missile programs. 
The elite still get to live like elites. The burden falls on 
the average person. So they continue to do what they want to do 
when they want to do it, and they have not had enough of a 
persuasion to change their pathway.
    Senator Merkley. So in conventional warfare, one thing that 
deters folks is if I attack them, they will attack back. So my 
time is running out, so I will just ask you two pieces of this 
question.
    Should we send a message that we are going to respond 
ferociously if we are attacked in a cyber manner, if attacked 
by North Korea again?
    And second of all, should we take sanctions against their 
computer scientists traveling the world and attending 
conferences, if you will, a privilege that you have noted that 
they still enjoy?
    Dr. Ravich. Taking the second part first, absolutely. It 
gets to understanding who is in the command and control 
apparatus of North Korea's cyber and who is operationalizing 
it. And absolutely that should be clearly on the docket.
    On the first, we do need and will need to respond more 
forcefully but we better ensure that our castle walls are 
strong enough, and that is of great concern.
    Senator Merkley. Which they are not even close.
    Thank you.
    Senator Gardner. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses.
    Mr. Rosenbach, in your written testimony, you quote from a 
Department of Defense document, a cyber strategy document, 
dated 2015. And the quote is about deterrence, and it says it 
works by ``convincing a potential adversary that it will suffer 
unacceptable costs if it conducts an attack on the United 
States and by decreasing the likelihood of a potential 
adversary's attack will succeed.''
    Reporting today suggests that as part of the growing facts 
that are available about the Russian cyber attack on the 
election, that 39 State boards of elections were hacked in some 
way by the Russians. So clearly we did not convince a potential 
adversary that it will suffer unacceptable consequences.
    Have you delved into why we did not? I think the testimony 
is that President Obama in September told Vladimir Putin to, 
quote, knock it off, and then there was even a use of the red 
phone right before the election to reach out and say, hey, we 
know what you are doing. Why was more not done and why was more 
not done publicly to discuss the fact of this Russian incursion 
into our elections?
    Mr. Rosenbach. Senator, that is a really hard question for 
me because I was so involved in all of the deliberations about 
that. And so I would just say this that I personally believe 
that we should have done much more, that we should have done 
much more sooner to send a signal that this is not something 
that would be acceptable to the United States, recognizing that 
an attack on our democracy in the way that it happened is 
probably the most serious attack on a vital U.S. national 
interest. It is hard for me to imagine that we should not have 
been more muscular in our response.
    But I will have to tell you at the time that this was going 
on, there were different ideas about what the outcomes might be 
and that sometimes influences foreign policy decisions as well.
    Senator Kaine. And regardless of the outcomes, an attack is 
an attack, and the integrity of the system is something we 
should protect one way or other. Correct?
    Mr. Rosenbach. Yes, sir. I think the thing I am most 
concerned about now is even after the fact, we still have not 
responded to the Russians in a way that the rest of the world 
sees that you cannot get away with doing this to the United 
States. So I am concerned now that in the next election--the 
North Koreans--they definitely watch that. So do the Iranians.
    Senator Kaine. Would you not think the rest of the world 
would also potentially draw the message, wow, if the U.S. would 
not act vigorously to defend itself, what is the likelihood 
that they would defend us against an attack?
    Mr. Rosenbach. Yes, sir. Absolutely. I think that is a 
great point. And this is not a political thing. I know there is 
a lot of stuff going on associated with issues political right 
now. But we, as a country, need to raise above the political 
fear about it and do something about cyber and information 
attacks against the democracy, or otherwise in the years to 
come, it is just going to get worse.
    Senator Kaine. I mean, I will just say kind of to my 
surprise in the aftermath of the election, I was amazed how 
much of it was known by folks with the administration and how 
little was done. Calculations, as you say. I know a lot more 
after November 8, but I was amazed how much of that was known 
long before November 8 with little action.
    And I contrast it--and I am not sure it is a completely 
fair comparison but with the French experience. So when they 
were aware that there was a Russian effort to suck data and 
emails away from candidates, they made that very public. And 
then when there started to be the dumping of such data, they 
also made that very public. They made a very different 
calculation than we did. And that may be the ability to take 
advantage of learning. And a Sony attack is early, then 
involvement in a Brexit vote, and then involvement in the U.S. 
election. And by now there is an opportunity, wow, this is 
really happening. We better talk about it. But they really made 
a different calculation as a nation, not any particular party. 
As a nation, they made the calculation Russia is doing this. We 
are going to call them out on it on the actual attack and 
taking of data and emails, and then as soon as they start to 
dump them, we are also going to call them out on it, which led 
voters to at least maybe have a little sense of skepticism 
about what they might hear. That is not the only way to respond 
to an attack, but being transparent to the public about what is 
going on, that would seem to be in accord with our own values 
as well. Would you not agree?
    Mr. Rosenbach. I really strongly agree, Senator. I think 
the way the French handled it was very sophisticated. They did 
have the huge advantage of seeing that it was probably coming 
because of things that the Russians had done. However, they 
were not afraid to go out there. And then they also did things 
that were kind of creative with information ops themselves. 
Those are things that we should learn from and that we should 
watch out for with our allies. Again, the point here is we need 
to think about this domain in a more creative way and realize 
that it has grave consequences for the country if we are not 
going to be tough and think about it in a sophisticated way 
like other foreign policy issues.
    Senator Kaine. And, Mr. Chair, if I could just say one 
thing. It is not really a question. But I really appreciated 
that aspect of Dr. Ravich's testimony because it kind of 
challenged my own thinking. I am on the Armed Services 
Committee too and in Foreign Relations. Virtually everything we 
talk about, military operation, we talk about our allies, what 
are we going to do together with our allies. But often when we 
have cyber discussions, we have cyber discussions, you know, 
just what should the U.S. do, and we do not talk about it so 
much with respect to allies other than intelligence sharing. 
But in terms of what we might do together with allies, we talk 
about that in other realms of defense, not in cyber defense. 
And your notion of cyber co-ops and why are we not doing more 
with the UK and Israel kind of reminds us, oh, yes, if this is 
a domain of warfare, we should be thinking about alliances just 
as we do whether we are talking about training exercises, 
European Reassurance Initiative, and others. And I really 
appreciated that aspect of your testimony.
    Thank you, Mr. Chair.
    Senator Gardner. Please go ahead.
    Senator Markey. Mr. Vice President--Senator, do not believe 
the fake news. [Laughter.]
    Senator Markey. I think the warning that you are giving us 
just by sitting here is something that we have to heed, and the 
consequences can be historic if you ignore the lessons of this 
last election and what happened in these other places. Such 
things can turn the whole arc of history. So thank you for 
being here. Thank you for your leadership on the issue.
    Senator Gardner. Thank you, Senator Kaine.
    And if you do not mind, we will just go back and forth with 
continued conversation, if that is all right with you if you do 
not have anything else going on right now.
    We started this conversation off--I think there are a lot 
of things that we could follow up on. You know, South Korea and 
China. I think it is unacceptable. What China has done to South 
Korea is basically a schoolyard bully when it comes to 
retaliating against South Korea's decision that they would make 
for its self-protection and the placement of THAAD. That is an 
alliance decision. Obviously, we continue to work to strengthen 
that alliance with South Korea and the United States. But that 
was an important decision that we have to make sure remains 
part of that alliance framework.
    By the way, China has cost South Korea in South Korean 
estimates $7 billion in economic damage as a result of their 
retaliation over South Korea's self-defense efforts.
    Going back to the question that we talked about, who is in 
charge, the cyber coordinator at the State Department, the 
Defense Department offices, the White House offices--you know, 
China has a cyber administration. President Xi placed himself 
on the cyber committee, this super cyber committee. Other 
countries may be doing other things. Is there a different 
construct that we should be looking at? Do we need a cyber 
administration? I do not want to create bureaucracy for the 
sake of creating a bureaucracy. Do we need an envoy, 
ambassador-level position at the State Department? How do we 
get to the point where we have somebody that is the 
identifiable lead when it comes to a whole-of-government cyber 
policy?
    Dr. Ravich. Well, one thing that you might want to 
consider--harkening back to the Eisenhower administration and 
their Solarium Project with how do we actually prevail in a 
battlespace that is going to last into the future and looking 
at the hard choices of containment, of deterrence, you know, 
the big muscle movements of a government, how do we do 
targeting, and who is part of it. These were taken on very 
specifically and focused.
    So right now, in answer to your question, I do not think 
there is any place in the U.S. Government that could undertake 
a Solarium Project, drawing in the right people to be able to 
do it. Whether that first sits on the outside, and the 
knowledge gained from that exercise is then imported onto a 
functioning process on the inside, or whether those things 
happen simultaneously needs to be kind of parsed out. But it is 
needed and it is needed immediately.
    Senator Gardner. Mr. Rosenbach?
    Mr. Rosenbach. You know, I honestly think that we are at 
the point now where most of the known answers are there and 
available, and the biggest problem is implementation and 
finding people to get stuff done, particularly in the 
government. So I like the idea that there could be a very 
senior person in the White House driving this in the 
interagency, interacting with the private sector, doing some 
things internationally, but it would have to be someone who has 
gravitas, has clout, and also who has the backing of the 
President.
    Senator Gardner. Can a coordinator do this, or does it need 
to be a cabinet-level official?
    Mr. Rosenbach. I would say the coordinator, as has it has 
been in this iteration--Rob Joyce is a great guy, very smart, 
very capable, but he does not have the stature and the backing 
probably to really move things, I think similar to Michael 
Daniels. It is not a political thing. I think it needs to be 
something that it is a more senior-level position, and it 
cannot be within one of the departments I do not think.
    Senator Gardner. President Xi, of course, came to 
Washington last year, and the Obama administration and 
President Xi came to some kind of an agreement as it relates to 
China's cyber efforts against the United States. This is an 
outgrowth of the OPM breach. Is China living up to its end of 
the bargain from the conversations it had here in Washington 
last year?
    Dr. Ravich. It seems that there was a dip at first, but the 
anecdotes that are coming in because--Eric and I were talking 
about this--the lack of a comprehensive database on cyber 
incidents against our private sector is not there. It looks 
like business as usual, meaning the wholesale theft of IP on 
the private sector side. I will let others talk about the 
infiltration on the government side of the house. There is a 
little bit of we do not know what we do not know, but again, 
anecdotally, it looks like they are back to business.
    Senator Gardner. Mr. Rosenbach?
    Mr. Rosenbach. I hate to sound cynical but Chris Painter 
and I were the two representatives to go and negotiate with the 
Chinese on issues like this back in the day. And they would 
tell us every single time that we met with them that they were 
not doing economic espionage, that it was not the Chinese. 
There was no way to know that. So I do not want to sound 
cynical, but I believe they are now just better at doing what 
they were doing before and they found new ways and that their 
leadership told them don't you dare get caught again.
    Senator Gardner. So a quick question for the two of you. 
And you may not feel like you can answer this question. I do 
not know. But I had a meeting with the CEO of a major tech 
company in the United States, and he brought up five points: 
multi-factor authentication, strong encryption of data, micro-
segmentation, consistent and automatic patches and upgrades, 
and consistent education and testing of the workforce. Pretty 
simple and basic hygiene points. And his point was that these 
five things, had they been implemented, would have prevented 
the OPM breach, would have prevented the Sony breach, would 
have prevented the ransomware spread.
    Do you feel comfortable in answering that question? Is that 
true? Is that something as simple as requiring vendors to do 
this kind of thing? Would that solve a significant portion of 
this threat?
    Dr. Ravich. I think it solves a portion of it, but I think 
what the answer to you completely misses is that state 
adversaries, very, very aggressive, very technologically 
sophisticated state adversaries, are looking to hollow out 
portions of our economy. And while the five steps will go very 
nicely to locking doors, maybe getting a guard dog if the state 
actor wants to get in there, it is not going to suffice. And 
the action has to be taken against the state actor themselves 
to push back on them.
    Senator Gardner. Mr. Rosenbach, just a last question and 
then I will turn it over to Senator Markey.
    Do we have a nuclear deterrent in cyber?
    Mr. Rosenbach. We do, of course. So just like in any other 
domain, if there were a cyber attack against the United States 
that resulted in death or significant destruction, the nuclear 
option would be on the table.
    Senator Gardner. I do not mean an actual use of a nuclear 
bomb. I mean is there a sort of theoretical digital version of 
a nuclear deterrent within the cyber realm should somebody do 
something so bad to the United States that we can send 
something back as a so-called cyber umbrella. And I think Dr. 
Ravich has written about this.
    Mr. Rosenbach. I do not think from everything I have done 
that I have ever seen the cyber nuke, so to speak. And the 
issue is it takes a lot of preparatory work to get everything 
in place to be able to take something down. But it would be 
great if there were such a thing, and you would have to use it 
in conjunction with other military options I believe.
    Dr. Ravich. No, but these are the kind of policy options 
that we definitely do need to develop, along with a very clear 
declaratory policy. Where are we in terms of if a country takes 
an action or allows for an action to be taken from their 
domain? Right? It kind of harkens back to the declaratory 
policy that was created after 9/11. You sponsor terrorism, you 
actually do it, or you allow others to use your territory to do 
it. I do not think that either we or our adversaries understand 
our declaratory policy. I think we need to work on that. I 
think we need to have one. And again, it goes to not just the 
adversary themselves but if they are sponsoring proxies, we see 
it the same way as if they did it themselves to us.
    Senator Gardner. Thank you and I apologize.
    Senator Markey?
    Senator Markey. I think it is very important.
    Like Stuxnet, we probably have some capacity which has been 
developed that we could paradox the Russians' or any other 
country's electrical grid system if they really wanted us to 
have to prove to them that we could reciprocate. Do you not 
think, Dr. Ravich?
    Dr. Ravich. Could we? Would we?
    Senator Markey. What Senator Gardner was asking is if we 
get attacked, can we attack back. You knock down our 
electricity system. Can we knock down their electricity system?
    Dr. Ravich. I assume, but do not know, that we have those 
capabilities.
    Senator Markey. Thank you.
    Do you agree with that, Mr. Rosenbach?
    Mr. Rosenbach. I think this is a really important question. 
So the worst case would be that someone thought the United 
States was an emperor that had no clothes when it came to cyber 
capability. And so when I was overseeing cyber things at the 
Department of Defense, I was very worried that we did not have 
enough capability and often would talk bigger than what the 
capability warranted. So I think it is a really important 
question that you are all are asking to push the country to 
have that type of real capability that you could use quickly 
and is not wrapped in all kinds of bureaucracy.
    Senator Markey. So in the spy versus spy world that we 
live, the fact that the National Security Agency lost control 
of powerful cyber weapons to the group known as Shadow Brokers 
raises questions about our own government, about our own NSA. 
Who do you think Shadow Brokers are?
    Mr. Rosenbach. You know, Senator, I have read a lot of 
intelligence on this topic, so I just cannot talk about that.
    Senator Markey. How about you, Dr. Ravich?
    Dr. Ravich. Kind of the same. I am not comfortable talking 
about the----
    Senator Markey. So we probably need a discussion about 
that. If there is some group out there that can crack into the 
NSA and steal our cyber weapons and then we cannot talk about 
who they are, it is hard to have a public policy response in 
terms of what our paradox of them would be, you know, what we 
would be trying to create as public policy. So that is a 
conundrum for us.
    Mr. Rosenbach. There is one thing that is important I was 
not able to say orally but is in my statement is that if we are 
going to build these type of cyber weapons, it is very, very 
important that we take care of them. So I was an Army officer. 
When you are in the Army, if you have an accidental discharge 
even with a single round, there is accountability for that. The 
company commander will be relieved. I am not sure we have that 
same kind of accountability right now.
    Senator Markey. So you are saying that these are powerful 
cyber weapons, and they were not properly protected by the NSA. 
That is what you are saying. You used the metaphor for your 
gun.
    Mr. Rosenbach. I will use a metaphor because I cannot 
comment specifically----
    Senator Markey. I understand.
    Mr. Rosenbach. There are ongoing legal things, but I think 
you all understand.
    Senator Markey. Yes.
    So if the United States is going to develop capabilities 
that allow our military and intelligence community to penetrate 
widely-used commercial software like Microsoft Windows, then we 
need to be far more vigilant to ensure that these tools are not 
stolen, much like we take steps, as you said, to make sure that 
other weapons arsenals are safe from theft and misuse, and we 
have to do the same for these tools. In fact, I do not think it 
overstates the severity of the risk we face to suggest that it 
is time for the intelligence community to develop features akin 
to the permissive action links that ensure that our nuclear 
weapons cannot be used except when authorized by the President. 
Do you agree with that, Mr. Rosenbach?
    Mr. Rosenbach. I think that is a very interesting idea and 
something that is technically completely possible. And I only 
wonder why we have not done it already.
    Senator Markey. Dr. Ravich, do you agree with that?
    Dr. Ravich. I do agree with it with the proviso that--there 
is a disconnect that has developed between the operators and 
senior policymakers in the last administration and this 
administration in terms of the operators not being able to 
fully, adequately, comprehensively explain what they need to do 
and the ramifications of it, leaving the policymakers to say do 
not do anything. There is a dangerous kind of gap in 
understanding that has arisen I believe leading us to not take 
actions when we could for fear from the senior leadership that 
it will have unintended consequences which many times it will 
not.
    Senator Markey. So do you have any other ideas for us in 
terms of tools that the NSA and other law enforcement agencies 
should adopt in order to ensure that tools such as those used 
in WannaCry are not stolen and misused by bad actors? Any other 
suggestions?
    Mr. Rosenbach. Senator, this is less specific to the U.S. 
Government and us taking care of our cyber arsenal, so to 
speak. In particular, because you are the Foreign Relations 
Committee, there is an analogy to the proliferation security 
initiative where if you were to work on a bilateral basis on 
building the capacity of nations to stop the proliferation of 
destructive malware, I think that is something that can make a 
difference. There is a little bit of deterrence aspect in that 
as well because a lot of countries buy those type of 
capabilities on the black market with bitcoin or straight out 
cash. It is sometimes hard to develop. If we were able to do 
something about that, I think it can make a difference.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Gardner. Senator Kaine?
    Senator Kaine. I will come back to Dr. Ravich on allies and 
cyber co-ops. I think that is a fascinating part of your 
testimony. And you are with the Foundation of Defense of 
Democracies, and one of the analogous challenges we are 
grappling with on the Armed Services--I am kind of interested 
in putting it into this context--is the battle against ISIS.
    So in the summer of 2014, ISIS had its biggest advance of 
real estate. And the U.S. and the coalition effort to defeat 
ISIS on the battlefield has been pretty successful, squeezing 
them down, painful, slow, but they are losing. And they know it 
and we know it, and they know that we know it. But ISIS now has 
decided, okay, if we are losing space on the battlefield, then 
what we probably should do is focus more on one-off attacks, 
whether it is an airliner in the Sinai, a mausoleum in Tehran, 
Manchester, London, San Bernardino. They are going to try to 
inspire attacks.
    You do not beat those attacks with a battalion. You beat 
those attacks with intelligence sharing. So kind of again, this 
is a kind of warfare where the quality of your alliances and 
the quality of the information that you share is probably the 
most important thing to defeat the attacks.
    So now I am putting myself into the cyber realm. It may be 
that, as we think about cyber defense, the quality of these 
alliances will end up being very critically important to 
whether we can defend our own democracies, protect our own 
internal democracy.
    How should we gauge the--it is one thing to judge the 
capacity of another nation to be a battlefield, you know, 
fighting force alongside with us, choose them to be a partner 
because we trust their on-the-ground combat capacity. How about 
gauging allies in the cyber realm for working cooperatively? 
The one that I am thinking about is under P.M. Modi, they have 
shed a little bit of the Congress' party nonalignment 
philosophy and they do more military training exercises with 
the United States than any other nation. And it is also a 
nation with a strong technological capacity. Just to use them 
as an example, analyzing India as a potential--this is the 
region we are talking about analyzing India as a potential ally 
in a cyber co-op arrangement as you describe in your testimony.
    Dr. Ravich. It is very interesting. How we are thinking 
about it is so the easiest hurdle to cooperate is probably on 
the R&D agenda because sharing of intelligence gets a little 
bit tricky, and different countries have different trust 
levels. So the idea was, well, let us walk into this in a way 
that we can actually good news, not a talk shop, but actually 
create something. We all have comparative advantages. When I 
started out looking at the United States, the Israelis, the UK, 
we have different comparative advantages technologically to go 
forward on that.
    But then as you start to kind of broaden out, other 
countries, while they may not be technological super stars, 
have particular windows into a certain threat. Ukraine has a 
window into a threat. They can understand a certain actor. 
There are other countries in the world that are also good 
friends or partners or allies with us on other things that have 
a window into a threat. Do they share the similar goals with 
us? So in terms of where India places, I think high and 
evolving on the technology, certainly a window into a threat 
from where they are, and certain shared goals going ahead.
    Senator Kaine. And I guess another area of shared interest 
you might want to look at is if they are facing a problem 
similar to us. So there might be a threat like a country, but 
there also could be is there a particular sector where you are 
facing challenges and we are facing challenges in the same 
sector. And that might suggest not cooperation on all of cyber 
defense, but at least let us strengthen our utility sector or 
our financial sector--those that are at risk--so that for 
purposes of R&D or other things, we could focus on a sector and 
make each of our nations stronger. So that would be probably 
another area that we should look at.
    Dr. Ravich. I agree.
    Senator Kaine. Thank you. That is very helpful.
    Senator Gardner. Thank you. And, Senator Kaine, thanks to 
referring to India. I had hoped to use this committee to 
adversely possess India as jurisdiction for the Indo-Pacific--
--
    Senator Kaine. I am on the committee that oversees India. I 
am always grasping. [Laughter.]
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    I want to follow up on Senator Kaine because following the 
WannaCry attack, Microsoft's President, Brad Smith, called the 
attack a wakeup call for the world's governments, and Smith 
called for a digital Geneva Convention in which governments 
would agree not to retain vulnerabilities for cyber weapons 
development and would, instead, reveal those vulnerabilities to 
software developers to protect consumers against attack. In 
essence, Smith was calling for a kind of cyber arms control 
comparable to the arms control regimes we have developed in the 
nuclear weapons domain.
    Of course, the analogy only goes so far. Nuclear weapons 
are physical objects. Cyber weapons are digital objects which 
can be hidden far more effectively. Cyber arms control would 
face far greater difficulties when it comes to verification and 
enforcement, but that does not mean that governments have no 
interest in cooperating. For example, if a country's hospitals 
are vulnerable to cyber attacks, that could impact global 
health. If a country's airports are vulnerable, that could 
impact travelers from beyond its borders. And if a country's 
stock market can be manipulated, that could affect the global 
financial system.
    Can you both discuss your thoughts on global cooperation 
intended to improve cybersecurity? What are the limits of cyber 
arms control? And are there remaining opportunities for 
international cooperation that we have not fully explored?
    Dr. Ravich. I have reservations about a push towards 
broader cyber norms and these large-scale elements that you are 
discussing that they can rapidly turn into a lot of wonderful 
language with lofty goals but crumble because of two things: 
one, because too many people are in it with too many different 
visions of what they want to do and capabilities to actually do 
them; and the second being that somebody opens the door to 
hostile adversaries being part of the discussion.
    So I kind of fall back on some of the earlier discussions. 
Let us start with a small group of likeminded countries that 
can actually put real technology to starting to solve some of 
these problems and have the wherewithal and the will to take 
actions when needed, show great results in that front and then 
slowly open up to who else do we want to protect under our 
cyber umbrella.
    Senator Markey. Thank you.
    Senator Gardner. Thanks, Senator.
    Mr. Rosenbach. You remember how President Reagan said trust 
but verify when he was talking about arms control? I think that 
trust part with the Russians right now in particular would be 
very difficult when it comes to cyber arms control.
    So I think it is an interesting idea. Personally I think we 
should go for more practical projects, for example, like trying 
to stop proliferation working together and doing that with the 
private sector as well. Down the road, I think it is an 
interesting idea but I am not sure, in particular from the 
Department of Defense perspective, where I used to sit, that 
that is something we would be that supportive of.
    Senator Markey. Thank you, Mr. Rosenbach. And I appreciate 
this Russia-U.S. tension. It is not quite Broncos-Patriots, but 
I appreciate your living in Cambridge in the era of Tom Brady 
in football. So thank you both for your testimony.
    Senator Gardner. Yes. And thank you both for being here.
    And I think one of the things the Senate should look at 
soon is the PATCH Act. It is legislation that would address 
some of the efforts and vulnerabilities that we have seen. If 
the U.S. Government knows of a patch and it is not a national 
security issue, then we ought to be making sure that that patch 
is available and out there. So there are a number of ways that 
we can work to make sure that we address some of these issues. 
I think it is interesting questions that we have to continue to 
build upon, understanding how our global alliances work when it 
comes to issues of cyber, understanding who is in charge, and 
understanding that perhaps Russia and China are not going to--
will not hold the same kind of interest that we do as it 
relates to these issues. And so how do we move forward with 
common interests around the globe to develop the kinds of norms 
that we need to and not wait to convince people who we may not 
be able to convince.
    So I want to thank all of you, thanks to both of you for 
your testimony today. Very interesting and actionable. Thanks 
to all the Senators who attended today's hearing. And the 
witnesses, again thank you.
    For the information of the members, the record will remain 
open until the close of business on Thursday, including for 
members to submit questions for the record.
    This is your homework assignment. I would just ask kindly 
that the dog not eat your homework, and you return the homework 
as quickly as possible. I ask the witnesses to respond as 
promptly as possible, and your responses will be made a part of 
the record.
    And again, with the thanks of the committee, the hearing is 
now adjourned.


    [Whereupon, at 4:00 p.m., the hearing was adjourned.]

            Prepared Statement of Samantha F. Ravich, Ph.D.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
